No. _ _
IN THE

~upreme Qtourt of tbe Wntteb ~tates
SIH PARTNERS LLLP, EXPLORER CORPORATION,
TAX MATTERS PARTNER,

Petitioner,
V.

COMMISSIONER OF INTERNAL REVENUE,

Respondent.
CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Petition for a Writ of Certiorari contains 8,725 words and complies with the
word limitation established by Rule 33.l(g)(i) of the Rules of this Court.
Dated: September 30, 2019

